<html>
<title> - EXPLORING DRUG GANGS' EVER-EVOLVING TACTICS TO PENETRATE THE BORDER AND THE FEDERAL GOVERNMENT'S ABILITY TO STOP THEM</title>
<body><pre>[Senate Hearing 112-384]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-384

                  EXPLORING DRUG GANGS' EVER-EVOLVING
TACTICS TO PENETRATE THE BORDER AND THE FEDERAL GOVERNMENT'S ABILITY TO 
                               STOP THEM

=======================================================================

                                HEARING

                               before the

 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE
67-124 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  RON JOHNSON, Wisconsin
                Kirk Robertson, Majority Staff Director
                  Ryan Tully, Minority Staff Director
              Jason Bockenstedt, Professional Staff Member
                       Kelsey Stroud, Chief Clerk


















                            C O N T E N T S


                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1
    Senator Ensign...............................................     3
Prepared statements:
    Senator Pryor................................................    29
    Senator Ensign...............................................    36

                               WITNESSES

                        Thursday, March 31, 2011

Donna Bucella, Assistant Commissioner, Office of Intelligence and 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................     5
James A. Dinkins, Executive Director, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security......     7
Thomas H. Harrigan, Assistant Administrator and Chief of 
  Operations, Drug Enforcement Administration, U.S. Department of 
  Justice........................................................     9
Frances Flener, Arkansas State Drug Director, State of Arkansas..    20
L. Kent Bitsko, Executive Director, Nevada High Intensity Drug 
  Trafficking Area...............................................    23

                     Alphabetical List of Witnesses

Bitsko, L. Kent:
    Testimony....................................................    23
    Prepared statement...........................................    79
Bucella, Donna:
    Testimony....................................................     5
    Prepared statement...........................................    38
Dinkins, James A.:
    Testimony....................................................     7
    Prepared statement...........................................    49
Flener, Frances:
    Testimony....................................................    20
    Prepared statement...........................................    72
Harrigan, Thomas H.:
    Testimony....................................................     9
    Prepared statement...........................................    62

                                APPENDIX

Photos referenced by Senator Pryor...............................    33
Photos referenced by Senator Pryor...............................    34
Photo referenced by Senator Pryor................................    35
Questions and responses for the Record from:
    Ms. Bucella..................................................    85
    Mr. Dinkins..................................................    94
    Mr. Harrigan.................................................   101

 
                         EXPLORING DRUG GANGS'
                   EVER-EVOLVING TACTICS TO PENETRATE
                       THE BORDER AND THE FEDERAL
                   GOVERNMENT'S ABILITY TO STOP THEM

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                                   U.S. Senate,    
             Ad Hoc Subcommittee on Disaster Recovery      
                         and Intergovernmental Affairs,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senators Pryor and Ensign.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I want to thank everybody for being here, 
and I certainly want to thank Senator Ensign for being here.
    Before we begin, I want to offer my condolences to the 
Immigration and Customs Enforcement (ICE) and the family of ICE 
Agent Jaime J. Zapata. Agent Zapata was killed after he and 
Victor Avila were shot in the line of duty in February. These 
agents will always be remembered for their heroic service, and 
I extend my wishes for a speedy recovery to Agent Avila and 
pray that Agent Zapata's family is comforted through this very 
difficult time.
    Today, this Subcommittee on Disaster Recovery and 
Intergovernmental Affairs will discuss methods drug gangs are 
using to penetrate the Southwest border in an effort to traffic 
drugs and people into the United States. We have asked 
witnesses from the Federal border protection and drug 
enforcement agencies to join us today, as well as officials 
from the States of Arkansas and Nevada.
    I would like to extend a special thank you to Ms. Fran 
Flener for being here today and traveling from Arkansas. She is 
not only a dear friend, but she also happens to be a very 
knowledgeable expert and I am glad she is able to be here 
today.
    The fight to secure the United States borders is a constant 
concern for the people living in the border States as well as 
the government officials who represent them. There are few 
threats as deadly and menacing as those posed by drug gangs, 
particularly Mexican drug gangs, operating near the border. 
Many Americans, and likewise, many lawmakers, may be inclined 
to believe that this problem is for the border States only and 
for the border States to solve, yet there can be no doubt that 
this is a problem for all Americans, North to South, Coast to 
Coast. An estimated 230 American cities, including three cities 
in Arkansas, have a presence of the Mexican drug cartels in 
their communities. We must do everything we can to disrupt 
their networks and to prevent them from moving product onto 
American soil.
    News coming out of the Southwest is filled with stories 
detailing new and inventive tactics the drug gangs have 
employed in an effort to move greater quantities of drugs and 
people across the United States border. Drug gangs have begun 
to use bold tactics that include creating mock border patrol 
vehicles to bypass legitimate border officials, and modifying 
vehicles to look like Wal-Mart trucks or FedEx vans. Just last 
week, a white van pulled up to a border checkpoint along 
Interstate 8 in eastern San Diego County. The van appeared to 
be filled with Marines in uniforms. According to the Associated 
Press, a plainclothes Border Patrol Agent who had served in the 
Marine Corps became suspicious when the driver did not know the 
birthday of the Marine Corps. In the end, 13 fake Marines were 
actually illegal Mexican immigrants and two were suspected drug 
smugglers.
    The efforts of drug gangs to smuggle people and goods range 
from the truly bizarre to the truly extraordinary. This past 
January, U.S. National Guard troops at the Naco Border Patrol 
station about 80 miles southwest of Tucson alerted the Mexican 
Army after a surveillance camera spotted several traffickers 
hurling bundles of marijuana over the border with a catapult. 
The catapult was found about 20 yards from the border on a 
flatbed platform towed by an SUV, according to the Associated 
Press.
    Officials estimate that Mexican drug cartels smuggle up to 
$25 billion of illegal drugs, as well as people, into the 
United States. They also have begun to use small planes or 
ultralight aircraft to fly over the border and beneath radar 
detection. According to the U.S. Customs and Border Patrol 
Agency (CBP), from October 2009 to mid-April 2010, the agency 
detected 193 suspected airspace incursions and 135 confirmed 
incursions by ultralight aircraft. The U.S. Immigration and 
Customs Enforcement Agency believes the number of incursions 
over the border more than tripled between fiscal years 2009 and 
2010, from 118 to 379. However, only 10 ultralights have been 
seized and only 27 people arrested for using them to smuggle 
drugs.
    Drug gangs have also begun using drug submarines, mostly to 
transport cocaine from Colombia into Mexico, although more 
recently, they have been found closer to U.S. waters. While 
most drug submarines are unsophisticated, and unable to dive 
deep into the seas, and propelled by small diesel engines, some 
drug gangs are now spending money on more advanced submarines. 
According to a recent Homeland Security Today article that ran 
in July of last year, Ecuadorian counternarcotics officials 
working with the Drug Enforcement Agency (DEA) seized a fully 
operational submarine built for the primary purpose of 
transporting multi-ton quantities of cocaine. The submarine 
came equipped with a periscope and air conditioning system. DEA 
intelligence helped lead the seizure of the submarine, which 
was the first seizure of its kind.
    Another hard-to-detect tactic is the use of drug tunnels. 
While the use of these tunnels is known to be widespread, they 
continue to evolve in both number and sophistication. In 2006, 
CBP had discovered 75 smuggling tunnels along the U.S.-Mexican 
border. These tunnels range from unsophisticated just boar-
holes stretching hundreds of feet in length, to far more 
sophisticated tunnels made with wood and cinderblock walls, 
rail systems, electricity, and ventilation. Last Thanksgiving, 
United States and Mexican authorities discovered a tunnel that 
started in the kitchen of a home in Tijuana, Mexico. The tunnel 
ran a half-mile, or about 7 football fields, into two Southern 
California warehouse. The tunnel was found when officials 
noticed a tractor trailer arriving at a warehouse in Southern 
California and the authorities found the truck stuffed with 
27,000 600-pound packages of marijuana worth $20 million.
    Tunnels dug into the warehouse present a particular problem 
because there are hundreds, if not thousands, of privately 
owned warehouses in cities along the border. Border security 
personnel have expressed frustration that they do not have the 
resources to adequately attack this problem.
    These are just a few examples that may illustrate the scope 
and the scale of the problem, so the intent of this hearing is 
to, first, examine the strategies our Federal agencies are 
employing to stop drug gangs; second, the level of coordination 
between Federal agencies and between Federal agencies and State 
and local governments; and third, whether agencies have the 
resources and manpower to creatively respond to these new 
tactics. We will also hear from Arkansas and Nevada witnesses 
about the consequences that result when drug gangs succeed and 
their products reach our cities. Senator Ensign.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Thank you, Mr. Chairman. This is a very 
important hearing today and I want to thank all of our 
witnesses who have taken the time out of their schedules to 
testify, including Lieutenant Kent Bitsko, who has traveled 
here from Nevada.
    I also want to thank all the men and women who work very 
hard 24-7 every day of the year to secure our borders. Those 
who work at our Nation's air, land, and seaports, those who are 
on foreign postings, those who work in our Nation's interior, 
whether in uniform or plainclothes, whether they are from ICE, 
CBP, DEA, or other Federal, State, or local agencies. They all 
deserve sincere appreciation for doing a very tough job and 
doing it very well.
    Some of these officers have made the ultimate sacrifice. 
From decades past, we recall the service of DEA Special Agent 
Enrique ``Kike'' Camarena. In recent years, we mourned the loss 
of Border Patrol Agents Robert Rosas and Brian Terry, and now 
in just the past few months, we suffered the loss, as the 
Chairman said, of ICE Special Agent Jaime Zapata. All served 
their Nation well, and we can best honor them by taking up 
their fallen standard and continuing and ultimately finishing 
their work by securing our borders.
    We will discuss today various tactics used by the drug and 
alien smugglers to achieve their goals, from disguising illegal 
aliens as U.S. Marines in uniform and traveling in vehicles 
masquerading as official U.S. Government transports, to using 
submarines and small boats to haul dope up our coasts, to 
crafting elaborate tunnels underneath our borders that bring 
illegal aliens and dangerous narcotics and other contraband 
into our country, the drug and alien smugglers will literally 
stop at nothing.
    The situation at our southern border is, without a doubt, 
very critical to our current and our future security. According 
to the National Drug Intelligence Center (NDIC), in its 2010 
study, the calendar year 2009 saw an increase in the 
availability of heroin, methamphetamines, and marijuana 
smuggled over our southern border. The insidious reach of the 
Mexican Drug Trafficking Organizations (DTO) across our 
southern border and into our communities is not limited 
strictly to the border area, through which they peddle their 
drugs with deadly results. Again, according to the NDIC, 
Mexican drug cartels are the only DTOs active in every region 
of the United States, including the States of every Member of 
this Subcommittee.
    These drug cartels' reach has even arrived here in our 
Nation's capital. The Washington Post reported recently that 
the D.C. Metropolitan Police and special agents from 
Immigration and Customs Enforcement/Homeland Security 
investigations arrested 8 suspects believed to be connected 
with Mexico's La Familia drug cartel, whose objective was to 
expand their operation in this District and the surrounding 
area. This multi-city investigation netted over $5 million 
worth of crystal meth alone.
    Just as ominous, the Mexican drug cartels, according to 
reports, have expanded their relationship with street and 
prison gangs in the United States and have increased their 
distribution of illegal drugs into more rural and suburban 
areas. This drug trade has brought enormous revenues to these 
cartels. Tens of billions of dollars are smuggled from the 
United States throughout the Southwest border into Mexico. This 
blood money helps the cartels tempt some of our officers on the 
border to forsake their oaths to uphold the law for private 
gain. We know, however, that these dirty few are just a small 
microcosm of the total workforce and the vast majority are 
truly the rule to the exception.
    The end result is that innocent people are caught up in the 
violence. The Mexican government reported recently that over 
34,000 people have been killed in their country in drug war-
related deaths since 2007. Considering that last year's total 
of 15,273 marked almost a 59 percent increase in the numbers. 
Unfortunately, those numbers are still going up.
    The violence has also occurred in our country. Drug and 
alien smugglers have kidnapped innocent people to further their 
objectives, have emboldened street gangs to become more 
violent, thus placing more of our brave law enforcement 
officers and ourselves in greater danger.
    This is a battle that we must win. We must win it because 
the drugs and the violence threaten individuals and communities 
across our Nation. We must win it because we need secure 
borders to ensure our national security. And we must win it on 
behalf of those who already have made the ultimate sacrifice in 
this fight.
    Again, I want to thank our witnesses and you, Mr. Chairman, 
for holding this very important hearing.
    Senator Pryor. Thank you, Senator Ensign.
    We have three very good witnesses in our first panel and I 
want to welcome each of you to the Subcommittee. What we are 
going to do is have you do your opening statement in about 5 
minutes. But first, let me just run down the list and introduce 
each one of you very quickly and then I will open up with you, 
Ms. Bucella.
    Our first witness today is Donna Bucella. She is the 
Assistant Commissioner of the Office of Intelligence and 
Operations at the U.S. Customs and Border Protection Agency.
    Our next witness is James Dinkins. He is Executive Director 
of the Office of Homeland Security Investigations at U.S. 
Immigration and Customs Enforcement.
    Our third witness is Thomas Harrigan. He is the Assistant 
Administrator and Chief of Operations at the Drug Enforcement 
Administration.
    I want to thank all of you all for being here, and Ms. 
Bucella, if you would lead off. Thank you.

 TESTIMONY OF DONNA BUCELLA,\1\ ASSISTANT COMMISSIONER, OFFICE 
    OF INTELLIGENCE AND OPERATIONS, U.S. CUSTOMS AND BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Bucella. Good morning, Chairman Pryor, Ranking Member 
Ensign. It is a pleasure to appear before you today to discuss 
U.S. Customs and Border Protection's efforts to secure our 
Nation's borders. As America's front-line border agency, CBP is 
responsible for securing America's borders against threats 
while facilitating legal trade and travel.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bucella appears in the appendix 
on page 38.
---------------------------------------------------------------------------
    I would like to begin by recognizing those at the 
Department of Homeland Security (DHS) who have given their 
lives in the service to our Nation. The loss of these brave 
agents is a stark reminder of the sacrifices made by the men 
and women of DHS every day. It also strengthens our resolve to 
continue to do everything in our power to protect against, 
mitigate, and respond to the threats and secure our border.
    Over the past 2 years, DHS has dedicated historic levels of 
personnel, technology, and resources to the Southwest border. 
With funding providing by the enacted 2010 Border Security 
Supplement, we are continuing to add technology, manpower, and 
infrastructure to the Southwest border.
    Nonetheless, CBP still faces significant challenges. We 
remain concerned about the drug cartel violence taking place in 
Mexico and continue to guard against spillover effects in the 
United States. We will continue to assess and support the 
investments in the manpower, technology, and resources that 
have proven to be effective over the last 2 years in order to 
keep our borders secure and the communities along it safe.
    Our mission is complex and challenging. Vast open expanses 
of remote and rugged terrain between our ports of entry (POEs), 
coupled with the large volumes of legitimate trade and traffic 
at our ports of entry, are regularly exploited by smugglers and 
other cross-border criminal organizations. To further 
complicate our interdiction efforts, smugglers use a wide range 
of ever-evolving methods to attempt to move their illicit goods 
into the United States, both at and between our ports of entry. 
In general, marijuana is the primary form of contraband 
encountered between the ports of entry, while smugglers attempt 
to move cocaine, heroin, and methamphetamine through the ports 
of entry. While the routes and smuggling techniques differ 
somewhat in these environments, the challenge for our front-
line personnel remains the same.
    Examples of concealment techniques in vehicles and 
commercial conveyances include the exploitation of natural 
factory voids in vehicles, airbag compartments, quarter panels, 
transmissions, non-factory compartments in engine airtake 
manifolds, batteries, radiators, and gas tanks. These 
concealment techniques are used to illicitly move all manner of 
contraband, from narcotics, currency, firearms, and on some 
occasions people. To detect this contraband in vehicles and 
other conveyances, we employ a wide range of interdiction 
methods, to include officer intuition, behavioral observation, 
fiber optic scopes, and non-intrusive inspection technologies.
    Even with the deployment of all this, in the real 
environment, drug trafficking organizations continue to use the 
rail cars to transport narcotics to and across the Southwest 
border. One of the most common techniques is the use of natural 
voids in the chassis systems of the various rail cars.
    Due to the increased CBP land and air intradiction efforts 
against the U.S.-Mexico border, drug and human smuggling and 
trafficking organizations are increasingly turning to maritime 
smuggling routes to get their illegal cargo into the United 
States. Mexican smuggling organizations use a variety of 
methods to enter into the United States, including the use of 
small wooden vessels to evade detection. These organizations 
also use pleasure boats, shrimp boats, fishing boats in an 
attempt to blend into legitimate boat trafficking.
    In the ravine environment, a primary method of crossing 
illegal goods and people through our borders are use of high-
speed vessels that can come across the rivers in a matter of 
seconds. Other methods, such as the ultralight aircraft, which 
are attractive to smugglers because of their size and 
capability to fly extremely low. Detecting the tracking of 
ultralight aircraft is very difficult using standard radar 
technologies.
    In addition, smuggling methods include use of tunnels. 
Tunnels have ranged from very sophisticated to very 
rudimentary. CBP works with ICE, DEA, and the Department of 
Homeland Security Science and Technology Directorate to test 
and ultimately deploy tunnel detection technology.
    We also work with our foreign, State, local, Tribal, and 
Federal partners to address the problems of the Southwest 
border and combat transnational threats. CBP hosts a weekly 
Southwest State of the Border teleconference in which we share 
the different types of concealment techniques and methods with 
our partners. These teleconferences include up to 290 
participants on a weekly basis.
    Beyond this measure, in recent months, we announced the 
Arizona Joint Field Command at CBP. This brings together and 
aligns Border Patrol, air and marine field operations under a 
unified command structure to better, in a more comprehensive 
way, meet the unique challenges faced at our border, especially 
in Arizona.
    Despite these many challenges we face in our operational 
areas of responsibility, we have, through collaboration and 
coordination with our partner, made great strides. With your 
continued assistance, we will continue to refine and further 
enhance our effectiveness in detection and interdiction 
capabilities.
    Thank you for this opportunity for me to testify about the 
work at CBP. We are committed to providing our front-line 
agents and officers with the tools they need to effectively 
achieve the primary mission of securing our borders, and I look 
forward to answering any of your questions.
    Senator Pryor. Thank you. Mr. Dinkins.

  TESTIMONY OF JAMES A. DINKINS,\1\ EXECUTIVE DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Dinkins. Chairman Pryor and Ranking Member Ensign, on 
behalf of Secretary Napolitano and Assistant Secretary Morton, 
I would like to thank you for the opportunity to discuss ICE's 
efforts to investigate, disrupt, and dismantle transnational 
criminal organizations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dinkins appears in the appendix 
on page 49.
---------------------------------------------------------------------------
    As you mentioned, we experienced a terrible tragedy within 
our agency last month involving two Special Agents assigned to 
our Mexico office. Special Agent Jaime Zapata lost his life, 
and Special Agent Victor Avila was seriously injured after 
being ambushed while driving in a U.S. Government vehicle. This 
senseless act of violence serves as a clear reminder of the 
dangers confronted and sacrifices made each and every day by 
our Nation's law enforcement officers. Our prayers remain with 
both the Zapata family for their loss and for Special Agent 
Victor Avila's speedy recovery.
    Since the incident, ICE Special Agents have been working 
with our Federal law enforcement partners at DHS and the 
Department of Justice (DOJ) to support our Mexican partners in 
their efforts to track down the perpetrators of this heinous 
attack and to ensure those responsible for the murder of 
Special Agent Zapata are brought to justice.
    As you know, the illicit flow of drugs, money, weapons, as 
well as human smuggling and trafficking are part of a complex 
interconnected system of illicit pathways and international 
criminal organizations that span the globe. ICE targets these 
criminal organizations at every critical phase in the illicit 
cycle--internationally with our foreign law enforcement 
partners, where the drugs are produced and the drugs originate, 
at our borders with CBP, where the transportation cells attempt 
to exploit America's legitimate trade, travel, and 
transportation systems, and throughout the United States with 
our Federal, State, and local, Tribal law enforcement partners 
in large and small communities where the criminal organizations 
earn substantial profits from the sale and distribution of 
their illicit cargo.
    To combat these transnational criminal organizations, ICE 
has 69 offices in 47 countries, as well as more than 200 
offices located throughout the United States. This includes 
substantial resources along the Southwest border, where since 
March 2009, ICE has doubled the personnel assigned to the 
Border Enforcement Security Task Forces (BEST) program, 
increased the number of intelligence analysts, and have 
deployed nearly five times more border liaison officers to work 
with our Mexican counterparts. Indeed, ICE now has nearly one-
quarter of our personnel assigned to the Southwest border, more 
Special Agents and officers than ever before.
    I am pleased to report our efforts to dismantle 
transnational criminal organizations are producing results. For 
example, in November 2010, the San Diego Tunnel Task Force, 
which is part of the San Diego BEST, discovered two tunnels and 
seized more than 50 tons of marijuana. The first tunnel, 
discovered on November 2, 2010, was a 600-yard underground 
cross-border passageway equipped with rail, lighting, and 
ventilation systems. Solid investigative work in collaboration 
with our Mexican law enforcement partners led to the discovery 
and resulted in the seizure of 30 tons of marijuana.
    The second tunnel, discovered on November 26, 2010, was 
even more sophisticated, included reinforced supports, advanced 
rail, and electrical and ventilation systems. This tunnel 
discovery resulted in the arrests of eight individuals and the 
seizure of more than 20 tons of marijuana.
    We have also observed increasing collaboration between drug 
trafficking organizations and transnational gangs. To combat 
transnational gangs, in 2005, ICE launched Operation Community 
Shield, and since that time, we have arrested more than 20,000 
gang members and associates. Seven-thousand-six-hundred-and-
ninety-nine of those had prior violent criminal histories.
    Just last month, ICE completed Project Southern Tempest, 
the largest ever ICE-led national initiative targeting gangs 
with ties to the Mexican drug trafficking organizations. 
Southern Tempest involved operations in over 160 U.S. cities, 
working side by side with more than 173 Federal, State, and 
local law enforcement agencies and led to the arrests of over 
600 gang members and associates. This operation demonstrates 
the need to not only combat criminal organizations operating 
along the Southern border, but also targeting their operations 
throughout the United States and abroad.
    I want to thank you again for the opportunity to be here 
today and appreciate all the support you have provided to ICE 
in our efforts to combat transnational smuggling, and I would 
be happy to answer any questions.
    Senator Pryor. Thank you. Mr. Harrigan.

TESTIMONY OF THOMAS H. HARRIGAN,\1\ ASSISTANT ADMINISTRATOR AND 
  CHIEF OF OPERATIONS, DRUG ENFORCEMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Harrigan. Good morning, Chairman Pryor, Ranking Member 
Ensign. On behalf of the men and women and the Administrator of 
the Drug Enforcement Administration, Michele Leonhart, I 
appreciate your invitation to testify today regarding the 
sophisticated methods that Mexican drug trafficking 
organizations use to move illegal drugs through Mexico and into 
the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harrigan appears in the appendix 
on page 62.
---------------------------------------------------------------------------
    Please know, in carrying out its mission, the DEA and the 
border begins with the sources of supply in South America. DEA 
has the largest United States law enforcement presence 
overseas, and since 1973 has been assigned the global 
enforcement mission that extends far beyond our Nation's 
borders.
    Our strategy in the Western Hemisphere is named the Drug 
Flow Attack Strategy. The Drug Flow Attack Strategy acts as a 
forward defense, a defense in debt, if you will, of the United 
States by interdicting the flow of illegal drugs and 
traffickers who smuggle them northward before they reach Mexico 
or the Southwest border. Stopping the drugs before they reach 
Mexico and the Southwest border impacts the United States drug 
supply, weakens the Mexican cartels, and helps reduce border 
violence.
    The Southwest border and the security threat posed by drug 
trafficking along the border is not a new issue for the DEA. As 
the lead United States law enforcement agency responsible for 
enforcing the drug laws of the United States, DEA special 
agents have been on the front line of both sides of the 
Southwest border for decades, gathering intelligence and 
conducting enforcement operations to dismantle the most 
powerful and ruthless drug trafficking organizations. The 
operations of these organizations have destabilizing effects 
not only in the border region, but throughout Mexico.
    The Southwest border is the principal arrival zone for most 
illegal drugs smuggled into the United States as well as being 
the predominant staging area for the drugs' subsequent 
distribution throughout the United States. This area is 
particularly vulnerable to drug smuggling because of the 
enormous volume of people and legitimate goods crossing the 
border between the two countries each day.
    DEA's Concealment Trap Initiative (CTI), contracts the 
service providers who build concealed trap compartments or use 
natural voids in vehicles and other conveyances for drug 
trafficking organizations to conceal their drugs entering the 
United States and to conceal bulk currency destined for Mexico 
from the U.S. Drug traffickers recognize that bulk currency is 
subject to seizure and easily forfeited when discovered by law 
enforcement authorities. To counter this, they employ a myriad 
of techniques, including the use of concealment traps, to 
impede law enforcement efforts to discover and seize illicit 
drug proceeds. DEA seized just under $39 million in addition to 
drugs and weapons in 2010 under this program alone.
    The DEA works vigorously in cooperation with its Federal, 
State, local, and foreign counterparts in mounting a sustained 
and aggressive organizational attack strategy against the 
Mexican drug trafficking organizations. The disruption and 
dismantlement of these organizations, the denial of proceeds, 
and the seizure of assets significantly impacts the 
organizations' ability to exercise influence and to further 
destabilize the region.
    Project Reckoning, Operation Accelerator, Project Coronado, 
and most recently Operation Bombardier are all examples of this 
collaboration. While these collaborative operations are 
extended to break the power and impunity of the cartels in the 
short term, they also exacerbate the violence in Mexico. These 
efforts are directly supported by the DEA-led El Paso 
Intelligence Center (EPIC). EPIC is a multi-agency tactical and 
strategic intelligence center consisting of almost 30 law 
enforcement organizations, to include representatives from 
Mexico and Colombia.
    There are several noteworthy interagency efforts being 
coordinated along the Southwest border, as well. The first of 
these is President Obama's National Southwest Border 
Counternarcotics Strategy that was introduced last year by 
Attorney General Holder, DHS Secretary Napolitano, and Director 
Kerlikowske from the Office of National Drug Control Policy. 
This strategy is designed to stem the flow of illegal drugs and 
their illicit proceeds across the Southwest border and reduce 
associated crime and violence in the region.
    Another excellent example is the Southwest Border 
Initiative, which has been in operation since 1994. This multi-
agency enforcement operation attacks Mexico-based drug 
trafficking organizations operating along the Southwest border. 
In a cooperative effort, DEA, the Federal Bureau of 
Investigations (FBI), ICE, CBP, and the U.S. Attorneys' Offices 
around the country conduct judicially approved electronic wire 
intercepts that ultimately identify all levels of these 
organizations.
    In short, guided by intelligence, DEA is working diligently 
on both sides of the border to stem the flow of illegal drugs 
and assist our Mexican counterparts. DEA recognizes that 
interagency and international collaboration and coordination is 
fundamental to our success. DEA will continue to closely 
monitor the security situation in Mexico and ensure that the 
rampant violence does not spill over the border by continuing 
to lend assistance and support to the Calderon administration.
    Again, Chairman Pryor, Ranking Member Ensign, I want to 
thank you for this opportunity to testify and we will be happy 
to address any questions you may have.
    Senator Pryor. Thank you all for your testimony and for 
being here today and all the things that you do.
    Let me start with a general question really for the whole 
panel. Each of you in your agencies play a very important role 
in this. Just a general question. Are there overlaps where 
there should not be? Are there gaps where there should not be? 
How is the system working? If there are conflicts among the 
agencies, how are those resolved? So Ms. Bucella.
    Ms. Bucella. Right now, we are embedded, literally, with 
ICE and their groups and with DEA, whether it is incident or 
Special Operations Division. We are also embedded with ICE and 
DEA at EPIC. Really, it is a collaborative. Many of us have 
been given the charter to do somewhat different. For us, it is 
protect the borders. We really are the interdictors.
    But we can only do that and be successful by giving and 
sharing the information that we receive with our partners on 
the border. And so there is probably much more that we can do. 
We are finding it on a daily basis. We are working closely with 
ICE on the San Diego Tunnel Initiative and we have had over 130 
tunnels that we have found. And as Mr. Dinkins said, it is very 
sophisticated and how we find it is either through technology 
and/or from cooperators and from intelligence.
    And so I will defer to my partners here, but we, on a daily 
basis, our agencies are intertwined because of the roles and 
missions that we each have that might be a little bit unique.
    Mr. Dinkins. Yes, sir. As she had mentioned, we do have 
distinctive roles in what we do, although there is a combined 
mission that we all share and that is protecting the border, 
stopping the flow of drugs, and so forth. And I can tell you, 
since I have been doing this job now 15 months, I thought one 
of the biggest challenges I would do is actually really with 
these two folks here is institutionalize that collaboration, 
and it has actually been a pleasure to do so.
    Since DHS was created, I can tell you that we have never 
had a better working relationship where CBP and ICE are 
literally codependent upon each other to get our jobs done, 
from the interdiction to taking it under the investigations. 
And that has likewise been with the Drug Enforcement 
Administration. Since I have been around in 25 years, I do not 
think that we have a better, more collaborative working 
relationship with DEA. They have a distinctive mission when it 
comes to narcotics. We have the mission when it comes to the 
smuggling, and those missions blend together. But I would not 
call it overlap as much as a partnership.
    Mr. Harrigan. Thank you very much, Senator. As Donna and 
Jim said, Senator, without question, I think the coordination 
and collaboration between the agencies, and not just the 
agencies represented here at the table but the interagency, as 
well, to include the Governments of Mexico, and as I mentioned 
in my opening statement, the Southwest border for DEA starts in 
Colombia. That is where we key our resources to target the 
organizations and the cartels that move the drugs through 
Central America and Mexico, as well.
    So everything we do is intelligence-driven. We try to work 
smarter, obviously with less. And we que up ICE. We will que up 
the interdictive CBP, as well, based upon the information and 
the intelligence that we derive from our sources down--and our 
counterparts, as well--down in Colombia and Central America, 
because, again, when you measure seizures down along the 
isthmus of Central America or in Colombia, you typically count 
it by multi-tons. When seizures are made along the border, we 
typically count them in maybe pound or kilo quantities. So 
again, we direct our resources down south of the border but 
work extremely closely with ICE and CBP, because if not, we are 
going to fail.
    Senator Pryor. Mr. Dinkins, let me just ask you this, since 
you are in the middle of the table and you are talking about 
how well everything works together, and I am glad to hear that, 
but with multi-agencies involved, is the decisionmaking 
sometimes slow or cumbersome? I mean, can we streamline 
anything or does it need any streamlining?
    Mr. Dinkins. Generally, our field commanders downrange, our 
Special Agents in Charge and Port Directors and the DFOs from 
CBP, they are the ones that are interacting on a daily basis, 
literally working side by side with each other. So those 
decisions are made instantaneously as those cases are developed 
and present themselves. So there is not a bottleneck where 
things are having to go up to a headquarters structure and so 
forth of being worked out. Most of these cases might be led by 
one agency or another agency, but there are joint decisions 
being made along that investigation, along the way.
    Senator Pryor. Right. So right here, we have a photo of, I 
guess this is the catapult\1\ contraption that someone seized, 
I guess the Mexican Army seized this on the Mexican side of the 
border. And then I have a couple of others that I will show 
that are some vans\2\ and trucks\3\ that have been modified and 
painted and maybe stolen. I am not quite sure of the whole 
story of these. But these are examples of how the cartel has 
taken extraordinary measures to try to get things across the 
border.
---------------------------------------------------------------------------
    \1\ The photo referenced by Senator Pryor appears in the appendix 
on page 33.
    \2\ The photo referenced by Senator Pryor appears in the appendix 
on page 33.
    \3\ The photo referenced by Senator Pryor appears in the appendix 
on page 34.
---------------------------------------------------------------------------
    It seems like their tactics are always changing and they 
just kind of have a kaleidoscope of options there and it is 
like they will try anything to get the drugs across. So how do 
we keep up with that? I can start with anyone, but why not you, 
Ms. Bucella, and tell us, how do we keep up with that? Is it a 
training matter, or how do we stay on top of this?
    Ms. Bucella. It is imagination and innovation. The drug 
cartels are not hampered or limited by money. They have a 
business model and they will throw whatever they have at it.
    In addition, I think what has been absolutely evident to us 
is this is not a Federal law enforcement response. This is 
Federal, State, and local. We are literally on the borders 
dealing with our State and local counterparts because they see 
people come into the community. They see some strange things 
happening. And if we can identify that person who is bringing 
drugs into the United States through ICE and DEA and then find 
out sort of where they are, what the routes, methods, manners, 
and means, how did it happen. I mean, we many times have seen 
busloads filled with millions of dollars of money leaving the 
United States.
    So that is where our work begins. That is where we try to 
share all the information. It is no longer a matter of it is 
mine and my information not to share with one another. Because 
the drug cartels are so innovative and so quick and so 
adaptable, we have to work together.
    Senator Ensign. Well, once again, thank you all for being 
here. I have a few questions--actually, I have a lot of 
questions, but some of them, we will submit for the record 
because of the limited time today.
    But just to address the corruption problem, even though it 
may be limited, obviously, that is something that has to be 
addressed so that it does not spread. I know that there have 
been cases where the one woman who was found to be corrupt, 
hanging out at the bars with the drug dealers and things like 
that, can you describe basically for any of your organizations 
the methods that you use to try to detect whether there is 
potential corruption, whether an officer is being corrupted, 
and the preventative techniques? I know it is impossible to 
eliminate it completely. We are talking about a lot of money 
here and the potential is always going to be there. But can you 
just describe some of the things that you look for? We can just 
start and go down the table.
    Ms. Bucella. On behalf of CBP, when we have insight into 
the corruption cases, because DHS IG really is the lead on 
that, for us, it is trying to figure out all the method, 
manners, and means, and then instill for training. Fortunately 
also for CBP, because we have technology using many different 
types of readers when people are coming through the entry, we 
can take a look and go back looking at the technology to figure 
out who was in what lane and when and how, and sometimes when 
there has been detection of drugs in a vehicle or something, we 
can go back and figure out who was on the line at that time. So 
a lot of it is training.
    One of the challenges that we have is that we are not 
necessarily always aware of the number of corruption 
investigations, because as I said, it is usually led by DHS 
Inspector General and with the partnership at times with ICE.
    Senator Ensign. Mr. Dinkins.
    Mr. Dinkins. At ICE, in the hiring process, one thing is 
that we hire a lot of our Special Agents because the 
requirements--they are coming from other law enforcement 
agencies, so they actually even have a proven track record. So 
we are bringing them on after they have already had one 
background investigation. Now they are getting a second check 
and balance, as well. And if they have had any administrative 
issues with their previous agency, we can actually remove them 
from the process.
    But in addition to that, while you are on the job, I still 
am amazed that we have over a 20-year-old case management 
system, but that case management system, every time you key a 
stroke into the system, it is recorded. So if you were to run 
my name, for example, it is going to be recorded, and those 
things get audited regularly, so that actually can tell you if 
somebody is actually searching outside of their lane where they 
should not be looking for cartels to see if somebody is under 
investigation and so forth.
    As well as a good, healthy organization, to make sure that 
people realize that it is not tolerated at all is by having 
good checks and balances in your system just on everyday 
administrative things, ensuring that there are repercussions 
for the small things that might seem to be a technical, 
administrative violation, but in fact, that can perpetuate 
itself into an environment where people feel that it is OK to 
violate the rules. So it is really by having a whole, complete 
approach to integrity.
    Mr. Harrigan. Senator, you are exactly right. I do not 
think we could ever obviously eliminate corruption, but we 
could certainly minimize it. What DEA does in Mexico, we 
partner up very closely. We have what we call our Sensitive 
Investigative Units (SIUs), and these police officers are hand 
picked, not only by DEA but by our counterparts, in this case, 
our Mexican counterparts, the Mexican Federal Police, the 
Mexican PGR, and the Attorney General's Office. These offices 
are vetted. They are Leahy-vetted. There is background 
investigations conducted, as well. They are trained by DEA down 
in our academy in Quantico. And they really are the best of the 
best, if you will. We have enormous confidence in them.
    We have, like I said, since 1973, have had the largest U.S. 
Federal law enforcement presence overseas, and knock on wood, 
there has been very minimal corruption, not only in Mexico, but 
we have 13 of these SIUs around the world, whether it is 
Mexico, Colombia, Southwest Asia, Southeast Asia. So again, we 
attempt to minimize the corruption, and I think we have been--
and the Mexicans lately have been extremely successful.
    There was the arrest several years ago in Mexico of someone 
in the Deputy Attorney General's Office who was accepting 
bribes from one of the cartels to the tune of about $450,000 
per month. So again, working very closely with our Mexican 
counterparts, especially through these SIUs, because that is 
where we bring our most significant investigations are 
conducted through the SIU in an attempt to, again, limit and 
minimize the effect of corruption.
    Senator Ensign. If we could just try to take a larger view, 
we know, as all the testimony, the reports that we get, they 
are getting more and more sophisticated. They are kind of like 
the--they are very much like the terrorist organizations. We do 
one thing; they adjust to it. They are going to constantly 
adjust.
    But the bigger picture item is do we have the resources, 
are we putting the kind of resources that we need to protect 
our country from drugs, from other types of illicit activities 
that could come across our borders, especially, obviously, the 
Southwest border--by the way, I want to compliment--I have been 
down there, and it is extraordinary what you all are doing. It 
really is, the professionalism. Many years ago, it was not 
looked at that way, but the law enforcement professionalism now 
on the border is really extraordinary.
    But the other side of the border is continuing to get 
worse. The violence, obviously, we hear about is getting worse. 
And there is a great deal, because the money is getting larger 
and we have obviously a demand problem on this side. I think 
the Mexican government is exactly right, that we need to do a 
lot more about the demand problem. I have actually encouraged 
the President in his State of the Union Address, I wish that 
actually he would address that, basically, that if you are 
using drugs in the United States, kind of sending that message 
from the White House that if you are using drugs in the United 
States, that you are hurting our national security, that you 
are funding these incredibly violent drug cartels as well as 
other terrorists around the world.
    But looking at the big picture, do we have the kind of 
resources that we need and what more can Congress do? Do we 
need the military down there or the National Guard or whatever? 
Do we need more agents in the various departments? Do we need 
more technology? Is it more of the fence? Is it more--
obviously, between submarines, between tunnels, between 
everything that you have, you have huge challenges. So taking 
more of a 30,000-foot picture here, can you kind of describe, 
and I just want kind of each one of your perspective on that.
    Ms. Bucella. Well, technology is always needed, but trying 
to figure out what kind of technology, as you said, they change 
all the time. The tunnel technology has been helpful, but you 
cannot use something just separately. We need to have 
intelligence in using that.
    The submersibles and the semi-submersibles you could 
probably find, especially if you are up in the air, because 
they have to float at some point. But the totally submersibles, 
that is a whole different realm in the technology field.
    It is a challenge. I think that one of the--as Tom Harrigan 
said and Mr. Dinkins, we really do rely and work very hard with 
our partners down South. That is integral. And actually with 
all of our military. Yesterday, I spent some time with the 
Joint Interagency Task Force (JIATF) North and our people that 
are down there, and they are down at EPIC and they are helping 
with us. Not that the Department of Defense (DOD) solution is 
the solution, but frankly, we can leverage some of the skill 
sets that they have.
    For us, some of the topography in Arizona is much like 
Afghanistan. So we can look to our DOD partners to find out 
what technologies they are using that could be helpful for us. 
So it really is trying to identify what technologies are out 
there and then communicate with our partners to try to leverage 
the best technologies that are out there.
    Senator Ensign. Mr. Dinkins.
    Mr. Dinkins. Yes, I think both of you have actually 
recognized the fact, is this is not just a border issue. We 
just cannot put all of our resources on the border and expect 
that this is going to be the problem solver. We really have to 
look at where the root of the problem is, and as Mr. Harrigan 
mentioned with DEA, for example, in narcotics, the source of 
the narcotics can be as far away as Colombia and we have to 
ensure that we are working to deal with those threats actually 
before they hit our border. But also, we also have to make sure 
that those organizations that are operating within our 
communities are actually being held accountable for their 
illegal actions, because that is where a significant amount of 
the proceeds are actually being generated from.
    I would say we are at all high levels at ICE. I mean, we 
have grown substantially. We have a lot of resources. There is 
still room to grow as far as technology goes. There are, 
overseas and deployment of overseas, it is not just--for 
example, if you can work in South and Central America at the 
pathways that are being exploited by alien smuggling 
organizations, bringing up the aliens, it is not just enough to 
wait for those aliens to hit our border, either. If we can 
change policy, work with our Federal and law enforcement 
partners to actually interdict those individuals before they 
get into Mexico and before they land on our Southwest border, 
we are going to be a lot better off.
    So as Mr. Harrigan mentioned, they have SIU units. At ICE, 
we refer to ours as vetted units. We have nine of those located 
throughout the world. They are indispensable because their 
priorities become the priorities of what the United States law 
enforcement priorities are. They are there to work for you, and 
you can trust them because they have been polygraphed, vetted, 
and backgrounded. So there is never enough technology, and I 
think that we need to continue to push our borders out.
    Senator Ensign. Mr. Harrigan, also, when you address this, 
just very briefly, does any of the, like, heroin and things 
coming from Afghanistan, how does that enter into the United 
States, as well?
    Mr. Harrigan. Well, typically, sir, in Afghanistan, we see, 
despite Afghanistan being the most prolific producer of opium--
it produces over 90 percent of the world's opium--in the United 
States, we see less than 3 percent of the heroin seized here 
comes from Southwest Asia, comes from Afghanistan. Although, 
interestingly enough, our neighbors to the north in Canada, 
most of the heroin they are seizing right now, the Royal 
Canadian Mounted Police, comes from Afghanistan, we have not 
seen it yet here in the United States. But the ones that we 
have seen, the seizures that have been made have been by 
couriers coming over, flights originating in Southwest Asia, 
transiting through Europe, and then on to the United States, 
primarily the New York area, JFK.
    Relative to Mexico, sir, as Donna and Jim alluded to, 
technology obviously is the key. Every time it appears that we 
develop some sort of new technology to defeat something the 
traffickers have, they come up with something new. So again, 
technology is always key.
    But I think what we need to keep in mind, as I mentioned 
earlier, is the continued developments of these SIUs, these 
Sensitive Investigative Units, and we cannot lose sight of the 
fact, whenever we talk about Mexico or the Southwest border, we 
need to keep Central America in the discussion, as well, 
because there is unprecedented stress, in my opinion, by the 
Mexicans, the government of Mexico, right now on these cartels, 
by the United States, by the Colombians from the south. So we 
are pushing these cartels, if you will, down south into Central 
America.
    So DEA is continuing to buildup these SIUs, not only in 
Mexico. We have 11 offices right now in Mexico, but we also 
have an office in each of the Central America countries, as 
well. We are establishing vetted units, and the next degree up 
from a vetted unit would be an SIU, and that is what we need to 
do to have, I believe, any significant impact on these cartels.
    Senator Pryor. Thank you, Senator Ensign, and thank you for 
all of your responses.
    I have several questions for the record, but what I would 
like to do is just ask three or four real quick ones to you, 
Ms. Bucella, and then we can followup with the panel in 
writing.
    But let me ask about really the delivery mechanisms that we 
talk about. One of the things you talk about is the ultralight 
planes and how it is difficult to detect them. It seems to me 
that part of that is a technology issue, that you need to have 
the proper radars, or exactly how you do that, I am not sure, 
but you would have to have the proper detection equipment. But 
you also need the people there to respond quickly once you 
sense a plane coming or going, because they are not using 
traditional airports, I am guessing, in most cases. So what do 
we need to do there?
    Ms. Bucella. Well, again, I cannot underestimate 
intelligence and the informant capability, because the 
ultralights end up going to a very remote, rural area, and as 
you know, even with some of our technologies, we are not able--
they go to the remote, rural areas, with all due respect, I 
believe, knowing that we do not have coverage there. And trying 
to get someone in the middle of a desert in the middle of the 
night is difficult.
    And so the technology part of being able to see overhead 
where it is--there are some areas where we know ultralights 
generally come in, but it is such a wide area. And so even if 
we had coverage up above that, you really have to, especially 
if they come in at night, and they do not exactly have lights 
on, so you have to really know where you are looking, and it is 
almost like looking through a straw, yet you want something 
with a higher visibility and much wider coverage.
    So that has been a challenge for us, but we are working 
together to try to get some of the better technologies for 
radar, to be able to censor some of the changes in movement of 
the air so that we are able to identify an ultralight going in. 
But again, a huge challenge.
    Senator Pryor. OK. And also on the submarines, you 
mentioned those, and some are true submarines and some are, 
what did you call them, semi-submersibles?
    Ms. Bucella. Semi-submersibles. In other words, they have 
to come up for air, sort of like a turtle.
    Senator Pryor. Right. And so where are you seeing these? In 
some of the things I read, some of these are not necessarily in 
U.S. waters, but they are coming from Latin American countries, 
maybe up to Mexico or whatever. So tell us where those are 
showing up, how many of those, and what trends you are seeing 
there.
    Ms. Bucella. Sure. I think it really started from back in 
the 1990s when I was a U.S. Attorney in the Middle District of 
Florida. We knew that the drugs were coming up from Colombia 
and going through Panama, and so we are seeing much of it 
through the Caribbean, and some of these semi-submersibles, we 
are also finding in Central America, and they literally are 
made in parts, three or four large parts. I know Mr. Harrigan 
can talk to you a little bit more about that in detail, but 
that is what we are starting to see. First it was go-fast 
boats, the motherload, short boats, and then the semi-
submersibles, and now the submersibles.
    Senator Pryor. Mr. Harrigan.
    Mr. Harrigan. Donna brings up a great point. Obviously, as 
we spoke about technology before, these organizations just 
continue to evolve and to evade technology or develop new 
technology. The semi-submersibles, now we see the fully 
submersibles. You had alluded to earlier, sir, the fully 
submersible that was seized down in the Ecuadorian jungle. That 
was based upon collaborative efforts of the Ecuadorian police, 
the Colombian police, and the DEA.
    The difficulty, it is an incredible difficulty for us and 
our counterparts down there. These fully submersibles, are 
being constructed in triple-canopy jungle. So it is very 
difficult to detect. That is where I had alluded to in my 
opening statement where we need sources down there that provide 
this information, because the bottom line is without those 
sources, there is no way we would have ever detected that fully 
submersible.
    And another question comes to mind. That particular fully 
submersible was getting ready to transport, to smuggle in 
drugs. What if it is not drugs? What if it is weapons of mass 
destruction? What if it is--you could let your imagination run 
wild. So it is not just drugs that they are transporting, and 
we have to keep that in mind when we deal with, whether it is a 
semi-submersible, or more alarmingly, these fully submersible 
vehicles, vessels, now.
    Senator Pryor. Thank you. And, Ms. Bucella, really the last 
question that I have before we turn it back over to Senator 
Ensign and then go to the second panel would be we have a 
couple of photographs here of the tunnels, and I think there 
are two different locations that we have photographs of. One is 
a location you can see that is a very sophisticated tunnel.\1\ 
I do not know the whole story on that one. And then the second 
one shows by aerial photograph\2\ what the tunnel looks like, 
1,300 feet long.
---------------------------------------------------------------------------
    \1\ The photo referenced by Senator Pryor appears in the appendix 
on page 34.
    \2\ The photo referenced by Senator Pryor appears in the appendix 
on page 35.
---------------------------------------------------------------------------
    So I think in your testimony or in an answer to a question, 
you said that I think we found 130 of these so far----
    Ms. Bucella. Mm-hmm.
    Senator Pryor [continuing]. Or maybe more, and it sounds 
like you have some technology to detect, and there again, you 
rely on the intelligence to try to understand what is there. 
But how can we do better to locate and shut down these tunnels?
    Ms. Bucella. Yes, sir. Actually, we have found most of our 
tunnels, and I know Mr. Dinkins can talk a little bit about 
this, most of our tunnels have been on the Southwest border. 
Again, as I said, sometimes we find it just by Border Patrol 
agents hearing something beneath them. These tunnels are not--
some of them, frankly, I was down at the border a couple of 
weeks ago and it was 80 feet down, sophisticated, air 
conditioned units. You could put trains in them. So obviously 
they are not being made by somebody with a spoon. But there are 
many of them which are--quite frankly, I do not know why 
anybody would go down there. They are very, very narrow and 
they are able to push them through.
    The technology, we are working with DOD and working with 
DHS science and technology just to figure out how you can tell 
if there is movement underground. The problem with some of 
these tunnels, though, is because on the border they have 
extensive drainage systems, and that is--some of those are just 
drainage systems and are not tunnels, but these cartel members 
and narcotics traffickers, they will not stop at anything, sir.
    So, really, it is the technology coupled with behavioral 
intuition and informants and intelligence.
    Senator Pryor. Anybody else on that?
    Mr. Dinkins. One thing is I think it is key to point out on 
these tunnels, is while we have increasingly seen them rise 
over the number that we have actually been able to detect in 
the last 2 years, they are also very costly. Some of these are 
very costly, like the picture you have up there. They could 
take 2 years to build. So there is nothing that gives us more 
pleasure than to have somebody take 2 years to build something, 
and then just as they are popping their head out of that rabbit 
hole, is to crush it back down on top of them. That is 
something that we have been successful doing with a lot of 
investigative work, too.
    On the San Diego Tunnel Task Force, we have CBP, DEA, and 
ICE all working together. They developed a lot of good 
methodologies that now we are employing all the way over to 
Arizona. For example, with border communities that literally 
have warehouses and homes right there, they are doing outreach. 
They are educating the people, because these folks cannot work 
in a vacuum. There is going to be some type of suspicious 
activity. So in addition to the technology, good old fashioned 
police work and hitting the beat has actually been very 
effective, as well.
    Senator Pryor. Good. Senator Ensign, did you have any other 
questions?
    Senator Ensign. Just very quickly, getting back to the subs 
issue, is this something that when we get to the fully 
submersibles, is this something that is going to take the Navy 
being involved with, as well?
    Mr. Harrigan. Sir, yes, and as Donna had mentioned earlier, 
we work very closely with the Department of Defense. For DEA, 
it is the Deputy Assistant Secretary for Defense for 
Counternarcotics. But JIATF South is very much involved. 
SOUTHCOM is very much involved. Yes, we work extraordinarily 
closely with them, and also our foreign counterparts, the 
Colombian navy, primarily, the Ecuadorian navy, as well.
    Senator Ensign. OK. And then, briefly, getting back to the 
ultralights and some of these more remote areas, I am very 
familiar with the, I like to call them remotely piloted 
vehicles instead of the drones, because they actually have a 
human flying them, and they do a lot of those actually out of 
my home State up at Creech Air Force Base. But is that some of 
the technology, more of that is needed with even the wider 
camera angles and the more sophistication that they are 
developing all the time with that, flying higher, being able to 
see more, see at night, the whole thing like that? Is that more 
of the technology you are talking about?
    Ms. Bucella. Yes, sir. Absolutely. Those are invaluable to 
us for a whole host of reasons.
    Senator Ensign. OK. Mr. Chairman, I have a lot of 
questions. We will just submit those for the record. But I want 
to thank the panel, also. It has been excellent testimony this 
morning.
    Senator Pryor. Thank you, and I do want to thank the panel, 
as well. I have some other questions for the record that we 
will submit. We will leave the record open for 2 weeks, and I 
am sure some of the other Subcommittee members who could not be 
here today may have questions for you, as well, so if you can 
work with the staff on getting those back to us. Thank you very 
much for being here, all three of you.
    I will go ahead and introduce our second panel now, and as 
we are swapping out the desks there, I will go ahead and just 
say a few words about our two witnesses who will testify next.
    Our first witness is Fran Flener. She is the Arkansas Drug 
Director. She has been there since 2007 and she will talk about 
drug distribution threats in Arkansas and what Arkansas is 
doing with the Federal Government and other States and local 
governments, et cetera.
    Our second witness is Kent Bitsko. He is the Director of 
the Nevada High Intensity Drug Trafficking Area (HIDTA), and I 
will turn this over to Senator Ensign to properly introduce 
him.
    Senator Ensign. Thank you, Mr. Chairman.
    Kent Bitsko is a long-time resident of Las Vegas, Executive 
Director of the Nevada High Intensity Drug Trafficking Area, a 
longtime law enforcement veteran, 30 years with the Las Vegas 
Metropolitan Police Department, assigned to vice, narcotics, 
training the canine units, helped form the forerunner of High 
Intensity Drug Trafficking Areas and the Drug Interdiction 
Crime Enforcement Task Force (DICE). He served 4 years in the 
canine program, and as a matter of fact, Las Vegas Metro named 
their canine training facility after Kent. It is now called the 
Lieutenant Kent Bitsko Canine Training Facility.
    He retired. His retirement lasted all of one year and then 
he joined HIDTA in 2007 as their Executive Director, and under 
his leadership, HIDTA has grown to 12 enforcement task forces 
and 4 administrative initiatives.
    So we welcome you and thanks for being here.
    Senator Pryor. Thank you very much.
    Ms. Flener, do you want to go ahead.

 TESTIMONY OF FRANCES FLENER,\1\ ARKANSAS STATE DRUG DIRECTOR, 
                       STATE OF ARKANSAS

    Ms. Flener. Chairman Pryor, Ranking Member Ensign, and 
distinguished Members of the Subcommittee and honored guests, 
it is my distinct pleasure to testify before you today. My name 
is Fran Flener and I am the Arkansas State Drug Director. On 
behalf of Governor Mike Beebe and our State, I would like to 
thank this Subcommittee for its continued support for the 
coordination of counternarcotics enforcement at all levels.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Flener appears in the appendix on 
page 72.
---------------------------------------------------------------------------
    Senator Pryor, we are grateful for your continuing support 
of the men and women in law enforcement. Throughout your 
career, you have been a champion for crime prevention and 
community engagement. A bulletproof vest program that you began 
years ago for the increased safety of rural law enforcement 
still continues today, and the Secure Our Schools Program has 
enabled our kids to have a safer environment in which to study 
and learn. For each of these and others, I would like to take 
this opportunity to thank you for your outstanding leadership 
that has supported law enforcement at all levels.
    Arkansas is a predominately rural, agricultural State that 
for many reasons serves as an area in which drug trafficking 
organizations become established. Its relatively low 
population, rural areas, and small law enforcement presence in 
some remote regions provide the privacy required by those 
manufacturing and/or distributing drugs. Further, Arkansas's 
central location in the United States with its interstate 
highways provide primary corridors to transport those drugs to 
and through the State to the Midwest and the East Coast.
    Small Arkansas towns are increasingly facing drug 
distribution activities similar to what has historically been 
limited to the more urban areas. DTOs have established 
themselves as the primary wholesale and mid-level distributors 
of methamphetamine, powder cocaine, marijuana, and heroin. As 
drug networks expand, cells are progressively being set up in 
rural areas to become supply hubs for the metropolitan areas of 
the State. This rural-to-urban distribution reflects a reversal 
from traditional patterns of the illicit drug trade.
    The impact and scope of methamphetamine distribution in 
Arkansas is well illustrated by a collaborative investigation 
known as Operation Ice Princess. This DEA-led investigation 
included five additional Federal agencies, the Arkansas State 
Police, the Arkansas Highway Police, four drug task forces, 
four county sheriffs, five police departments, and the Arkansas 
National Guard. Operation Ice Princess dismantled a large scale 
ice methamphetamine distribution ring that was based in 
Jonesboro, with distribution cells in five counties. 
Investigators learned that these multi-pound quantities of 
methamphetamine ice originating in Mexico were regularly being 
distributed throughout the State through a network of 
distributions located in Jonesboro, Searcy, Kensett, Rose Bud, 
Batesville, and Little Rock.
    The abuse and diversion of pharmaceuticals in the past 4 
years has been an alarming and emerging threat. Many in the law 
enforcement community believe drug trafficking organizations, 
along with unaffiliated drug-seeking individuals, engage in 
robberies and burglaries of pharmacies, forge prescriptions, 
doctor shop, and steal from private residences in order to 
obtain pharmaceutical drugs to distribute.
    Two weeks ago, Governor Beebe signed into law a 
prescription drug monitoring program that will address some of 
these diversion issues. The implementation of this system, 
however, is contingent upon receiving Federal funding through 
the National All Schedules Prescription Reporting and the 
Harold Rogers Prescription Drug Monitoring Programs.
    The Gulf Coast HIDTA report that pharmaceuticals, in 
addition to being primarily locally diverted, also arrive in 
Arkansas via the Southwest border. Law enforcement agencies are 
increasingly reporting interdiction of prescription drugs with 
any arrests they make, regardless of it is a drug arrest or 
not.
    The continuing expansion of drug trafficking groups and 
their distribution of narcotics through rural Arkansas areas 
result in tremendous strains on local criminal justice systems. 
Small Arkansas towns, such as Kensett and Rose Bud, with 
populations of 1,648 and 459, respectively, lack the necessary 
resources to effectively combat this drug problem alone.
    Fortunately, Arkansas benefits from having outstanding 
relationships and collaboration among Federal, State, and local 
law enforcement. Arkansas's participation in federally funded 
drug enforcement initiatives serve to provide the means for 
greatly enhanced counterdrug efforts. Since joining the Gulf 
Coast HIDTA in 2008, Arkansas has gained many advantages in its 
capacity to attack the command and control of drug trafficking 
organizations. Specifically, it has provided for additional 
major case investigations, including complex conspiracy cases, 
increased criminal interdiction, enhanced information sharing 
and intelligence-based policing, and invaluable drug training. 
HIDTA has been the key component in fostering those 
partnerships and collaboration among agencies that have led to 
a leveraging of resources and increased sharing of 
intelligence.
    Thanks in part, also, to Federal funding through the U.S. 
Department of Homeland Security, our State's ability to combine 
intelligence has been bolstered by the launching of the State 
Fusion Center in 2009. The Fusion Center allows law enforcement 
agencies access to an array of intelligence databases. 
Arkansas's 19 Byrne/JAG funded drug task forces often initiate 
investigations which are later revealed to be components of a 
broader drug crime network. These DTFs have continually been 
reduced in funding since 2008.
    Given the severity of the Nation's drug problems and the 
often tragic consequences which result from them, it is of 
vital importance that an adequate, sustained level of resources 
be devoted to prevention, treatment, and enforcement efforts 
that produce results. Federal, State, and local drug 
enforcement programs protect rural communities that are 
increasingly besieged by violent criminal drug organizations. 
Without a full array of law enforcement beginning at the very 
fundamental levels that feed intelligence up the chain into 
larger agencies, pieces of that puzzle that make up the complex 
and well-developed drug trafficking organizations will never be 
put together.
    We recommend a restoration to the DEA funding for 
methamphetamine laboratory cleanup. Other enforcement 
operations in public health will suffer if this cleanup funding 
is not restored or if less expensive alternatives are not 
developed and funded. We also recommend continued funding and 
support of prescription monitoring programs across the country. 
Without Federal funding, Arkansas will not be able to develop 
and implement a PDMP.
    Arkansas, while currently experiencing great benefits from 
its membership in the Gulf Coast HIDTA, would benefit even more 
by the expansion of counties with high drug activity.
    Finally, we recommend that the Byrne/JAG Assistance Grants 
be funded at the 2002-2003 level. This will benefit programs 
nationwide, and in Arkansas, it will allow for an increase in 
the proactive development of drug cases.
    In conclusion, the abuse, manufacturing, and distribution 
of illicit drugs in both Arkansas and the United States pose 
serious but not insurmountable challenges. To affect positive 
change, a complementary and multifaceted approach, including 
prevention, education, treatment, and enforcement is required. 
If we are to expect to make a difference in our efforts to 
combat drugs and their consequences, each of these components 
must remain a high priority and receive all necessary resources 
to achieve success.
    Thank you again for the opportunity to testify today, and I 
will be happy to answer any questions at your convenience.
    Senator Pryor. Thank you, Ms. Flener. It is great for you 
to be here----
    Ms. Flener. Thank you.
    Senator Pryor [continuing]. And we appreciate your 
traveling up. Mr. Bitsko.

TESTIMONY OF L. KENT BITSKO,\1\ EXECUTIVE DIRECTOR, NEVADA HIGH 
                INTENSITY DRUG TRAFFICKING AREA

    Mr. Bitsko. Senator Pryor, Ranking Member Ensign, I 
appreciate the opportunity to come and address this 
Subcommittee. My testimony is going to address a few cases that 
we have experienced in Nevada that outline the impact that the 
cartels have directly on Southern Nevada.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bitsko appears in the appendix on 
page 79.
---------------------------------------------------------------------------
    The first one got a lot of media attention in 2008. It was 
the Cole Puffinburger kidnapping. Cole Puffinburger was a 6-
year-old boy who had the misfortune of having Mr. Tinnemeyer as 
his grandfather. Mr. Tinnemeyer was transporting cocaine for 
the Sinaloa drug cartel and decided on his sixth trip 
transporting 247 kilos from the Southwest border to the East 
Coast that he would steal $4.5 million from the cartel. Well, 
the cartel contracted with a couple of local cell leaders in 
Nevada and kidnapped Cole to try and get his grandfather out of 
hiding and to recover the money that he had stolen from them. 
We were fortunate enough. Working our HIDTA Investigative 
Support Center (ISC) with the Fusion Center led to the recovery 
of Cole unharmed and the prosecution of the local cell head 
leaders. They were not convicted of the kidnapping, but they 
were convicted of drug trafficking.
    The second case, we have some pictures, I believe, of a 
hidden compartment that was located in a trailer. It was the 
Sanchez case. Operatives from the local La Familia cell head 
met with undercover operatives at the Mandalay Bay Resort and 
Casino in Las Vegas. Over the subsequent couple of weeks, there 
were several narcotics undercover buys that transpired. When 
they took down Mr. Sanchez and his associates, intelligence led 
to his stash house, which was located in the Central Western 
part of Las Vegas. When they hit this house with a search 
warrant--well, it was a trailer, and the trailer was worth 
about $15,000, and the compartment that they found located 
under the bed, kind of a basement built under the trailer, they 
inadvertently found the button that activated the bed coming 
up, opened up the compartment, found automatic weapons, a drug 
stash, and they spent $20,000 on the compartment in a trailer 
that was not worth $15,000. So it gives you an idea of the 
level of commitment that they have in hiding their narcotics 
and preventing both the police and their competitive drug 
trafficking organizations from getting to their stash.
    The third and fourth case that I want to talk a little bit 
about, it is a case that the Southern Nevada Drug Task Force, a 
part of HIDTA, has been working since 2007. This case started 
with a one-ounce cocaine purchase from just a local Mexican 
national, did not really know what they had when they started 
running this person's name through all the databases that they 
had available to them. They discovered that he was very 
involved with the La Familia drug cartel, and over the 
following 2\1/2\ years this investigation has been going on, it 
has resulted in the recovery of $1.1 million in bulk cash, 42 
kilos of cocaine, 150 kilos of methamphetamine, 42 search 
warrants served, 114 different telephone intercepts, and 65 
arrests, dismantled several cartel cells across the Nation. 
They worked with DEA's intelligence division and participated 
in the dismantlement of cell heads in California and in points 
East, also.
    This spun into the Meno case, which was another La Familia 
cell in Nevada. This gentleman was using an 18-wheeler to pick 
up cocaine on the Southwest border and transport it into Las 
Vegas and then also many cities in the Central and Eastern part 
of the United States. At one point, phone recordings indicated 
that he was transporting $450,000 in bulk cash after making his 
drug deliveries. It went back to Las Vegas, and before they 
could react and get a search warrant at the house, he got it 
out of there and it was taken back down to Mexico in the bulk 
cash.
    These cases are just a sampling of what we are dealing with 
in Southern Nevada and what law enforcement and the prosecutors 
are tasked with in Southern Nevada.
    Some of the things that the cartels are doing that are 
trying to thwart the efforts of law enforcement, they are using 
Skype, BlackBerry e-mail accounts. They are posting e-mail 
drafts to an e-mail account, and then instead of transmitting 
them, they are giving that e-mail access code to their co-
conspirators where they can go in and get the message, trying 
to keep law enforcement from intercepting. The DTOs in Nevada 
are also using Mexican cell services and they are ``push to 
talk,'' and because these are based out of Mexico, the law 
enforcements cannot get the subscriber information to go up on 
warrants and to go up on Title 3s.
    Nevada HIDTA has had a significant impact in the law 
enforcement cooperation in Nevada, both Washoe County and Clark 
County. As Senator Ensign mentioned, we have 12 enforcement 
initiatives. This has not always been the case in Southern 
Nevada. When I was working narcotics, we would start a task 
force and somebody would get mad at somebody else and everybody 
would take their toys and go home.
    Well, with the advent of the HIDTA and with those heads of 
agencies having to sit across the table every quarter with 
their Federal counterparts and their State counterparts, any 
time there is a difference, they have been able to work it out. 
So since 2001 and the advent of HIDTA, we have had an extremely 
close working relationship with all the Federal agencies, all 
the State and local agencies. It has been a great relationship 
and we hope to see that continue.
    Thank you very much.
    Senator Pryor. Thank you, Mr. Bitsko. Let me followup on 
that last statement you just made about HIDTA. It sounds like 
it is a program that has worked well. Are there things that we 
can do better or should we expand it, or, I mean, tell me what 
the future should look like.
    Mr. Bitsko. Well, when you work in law enforcement, you can 
always spend more money. I mean, the supply of narcotics out 
there for us to go out and purchase and to attack is never 
ending. Even in a State that has as small a population as 
Nevada--I think we are at about 4 million people--there is 
enough that we could work it nonstop.
    But the HIDTA has about 120 law enforcement personnel that 
is assigned to it. We have a $3.2 million budget. Almost a 
little over a third of that goes to our intelligence-based 
policing. We are doing fine with money. We really are. The law 
enforcement community, because of the economic adversities they 
are facing in Nevada, they do not have the personnel to put 
more people into the HIDTA task forces. It is amazing to me 
that they have been able to continue with their commitment to 
the HIDTA, because we have not had anybody reduce their 
commitment, but in talking to the heads of agencies, they do 
not have any more people. They are, like everybody else, trying 
to do more with less, and Nevada has been hit harder 
economically than about anyplace else in the country and they 
are really struggling to stay above water.
    Senator Pryor. Ms. Flener, we have in our State some areas 
that are designated HIDTA-designated areas, and how is that 
working for us in our State?
    Ms. Flener. Well, I cannot echo what Kent has said enough. 
HIDTA works. We only have four counties in our State, so we 
have two initiatives in the Northwest corner and in Central 
Arkansas. So we do not have the I-40, where it comes into 
Arkansas or exits Arkansas, and, of course, that is a major 
transportation.
    But HIDTA has in addition to just those four counties, the 
training that HIDTA has enabled law enforcement all across the 
State to take advantage of at no cost it is free and it is top-
of-the-line stuff, and the intelligence network that has 
brought to the State has been just great. Great. HIDTA works.
    Senator Pryor. Good.
    Ms. Flener. HIDTA works.
    Senator Pryor. And I know that you mentioned we only have 
it in four counties in our State, but you also mentioned in 
your testimony about some of the challenges in small-town 
America and what we are seeing a lot of methamphetamine there 
and a lot of other things, of course, as well, but a lot of 
methamphetamine there. I assume one of the challenges with 
small-town America is that, first, they do not have very big 
police forces. They do not have a lot of resources. Walk 
through with us some of the challenges that small-town America 
faces.
    Ms. Flener. Well, when you think about it for a minute, 
here you have--for instance, I mentioned Rose Bud, 400 and less 
than 500 people in that little community. They have no means to 
fund anyone that can just specifically be assigned to drug 
enforcement, even though probably 90 percent of their problems 
are drug-related. So without funding from drug task forces 
through this Byrne/JAG program, we do not have anybody that is 
even working drugs. And then now we have been reduced to such a 
level that our drug task forces are multi-jurisdictional. They 
make up maybe four, five, six counties. They have been reduced. 
Maybe they have two law enforcement or two drug agents to cover 
that entire area.
    The admiration that I have for those people that have 
really stuck with this program, they are dedicated, they take 
advantage of opportunities when they can. I have quarterly 
meetings of the drug force task commanders, and to hear them 
come in and tell some of the stories that they do, it is 
quite--they have my utmost admiration.
    Senator Pryor. Good. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman, and both of you, 
once again, thanks for coming from our States to come here and 
give us that perspective from local folks after the Feds.
    One of the things, as you know, Kent, I have toured Fusion 
Centers and DEA and the FBI and the HIDTA centers, and it 
really is remarkable, and everybody I keep talking to, the 
cooperation and coordination at all levels now is so much 
better than it used to be. It used to be so many of the turf 
battles. This is our turf. Do not step into it. It is like the 
Feds, we are the enemy, or whatever. That seems to have mostly 
gone away. I am sure it still happens somewhat, but it seems to 
have mostly gone away because it is such a critical issue.
    You are dealing with on the front lines, obviously, and 
seeing what is happening in the local communities. One of the 
questions that I do get that I just always like to ask people 
who are on the front lines, you get this question about 
legalizing marijuana, legalizing other types of drugs. I would 
just like your personal opinion. You guys have been doing this 
for a long time. One is on legalizing just marijuana, and then 
the other would be on legalizing other types of drugs, because 
they say that if--the argument goes this way, that if you 
legalize it, you take away the criminal aspect of it. So I am 
not trying to prejudice your answer or anything like that. I am 
just saying what people who are for legalization say and I 
would just like your responses to it, either one.
    Mr. Bitsko. Having dealt with this for many years of my law 
enforcement career, having seen the impacts of narcotics in my 
family, I do not know anybody that decided on a Friday night 
that had never done drugs, oh, I think I will go do some crack 
cocaine. Everybody starts with something, whether it is 
marijuana or whether it is pharmaceuticals. They do not 
normally start doing heroin or cocaine or methamphetamine. So I 
think it is disingenuous for anybody to say that marijuana is 
not a gateway drug.
    I will give you a little bit of an idea of the impact that 
marijuana is having on the local scene in Las Vegas. At the 
beginning of 2010, we had no dispensaries in Las Vegas. By 
October 2010, we had 62 dispensaries, marijuana dispensaries in 
Las Vegas that were dispensing marijuana and marijuana edibles. 
Working in partnership with Las Vegas Metro, with the U.S. 
Attorney's Office and DEA, they served search warrants on 18 of 
those organizations. They seized over 300 pounds of finished 
product, and I do not remember the exact tonnage of edibles 
that they seized, but they seized a lot of edibles. They 
arrested 18 people on Federal indictments. We have seen--and I 
believe it is in direct relation to these dispensaries--the 
marijuana indoor grows are up by about 60 percent over the last 
3 years. We are on pace in 2011 to do 200 indoor grows in 
Southern Nevada. Now, Northern Nevada does not have the problem 
with indoor grows because they are getting their marijuana from 
over the hill in Central California.
    Las Vegas Metropolitan Police reported when I was preparing 
my annual report and threat assessment that they had eight 
homicides in 2010 directly related to marijuana, including a 
12-year-old girl that was killed in a home invasion. I think it 
was the uncle that was living in the house owed money to a DTO, 
and they went over to collect and a home invasion wound up 
killing a 12-year-old girl, and that was behind marijuana.
    So the effect that marijuana is having on our communities 
and on our children and the other segments is--it is almost 
indescribable, and it is the biggest cash crop. I mean, we talk 
about heroin and methamphetamine and cocaine, but there is a 
lot more money being made in Mexico from heroin, or, I mean, 
from marijuana than there is the other drugs.
    Senator Ensign. So I would take that you would not be for 
legalization.
    Mr. Bitsko. Oh, no way.
    Ms. Flener. I will state right off the record, I am not for 
any legalization of marijuana. Kent said it beautifully when he 
said nobody goes out and starts with crack cocaine or 
methamphetamine or whatever. But look at the problems that we 
have with drugs. If we legalize marijuana, the usage will go 
up. We do not even begin to take care, through treatment and 
prevention, of the problems that we now are experiencing, and 
we have programs that work.
    I think this goes back to what you said earlier, Senator, 
about the need for education, treatment, and prevention. We 
have such an education curve that we need to make with 
marijuana. The marijuana of the 1960s is not the marijuana of 
today. Where is it, in Mississippi? I forget which one of the 
universities in Mississippi does the marijuana programs, at 
least for our part of the country in terms of testing the drugs 
that are confiscated and their drug content. They tell us that 
it is going up, like, 600 percent in the drug strength. So no 
way do I want to make anything else for my grandkids, Kent's 
grandkids, to be the gateway and the path down that slippery 
slope of addiction.
    Senator Ensign. Well, I want to thank both of you. I have 
to actually get to another meeting. I would just like to make 
one other comment on it. It is really amazing. Everybody made 
fun of Nancy Reagan's ``Just Say No'' campaign, but drug use 
during the 1980s really went down dramatically. That is one of 
the reasons I said in my opening statement I have been trying 
to talk--or in my questioning that the Federal panel has been 
trying to talk. I tried to talk President Bush into it when he 
was President. I tried to talk to President Obama. I really do 
think that the bully pulpit to use to talk to our youth.
    Unfortunately, when I go--I speak to high schools all the 
time. Kids today think marijuana is a joke. They do. I get 
asked this question by young people, every single high school I 
go to speak to, almost without fail. They always ask me, how do 
you feel about legalizing marijuana? That is why I asked you 
the question today. And when somebody asks that question, all 
the kids laugh. They do, because marijuana usage to most kids 
today is a joke and it needs to become more serious, because 
the effects are so devastating. And that is the reason that I 
mentioned it today. So I thank both of you for being here.
    Ms. Flener. Thank you.
    Senator Pryor. Senator Ensign, thank you for being here and 
thank you for your questions.
    I do have a couple followups with each one of you. On the 
Mexican drug cartels, one of the concerns I have is that there 
is a lot of gang involvement in the United States that is 
Mexican-related, and now I am afraid we are starting to see 
that in our prison system. Really, the question I would have is 
how do you interpret all this? What do you think it means that 
we are seeing more and more gang presence in the United States 
that are Mexican drug cartel related and it looks like it is in 
the prison system now. I guess the concern I might have is that 
when these folks come out of prison, maybe the numbers have 
even multiplied in the prison because they come out of prison 
ready to go into the Mexican drug gang.
    Ms. Flener. Well, here again, we have programs that we are 
attempting to fund, the second-chance programs for people that 
are coming out of prisons. It is a tough issue. But we have to 
have in place follow-up, recovery centers for people that are 
leaving prison to integrate them back into society and help 
them regain their status of tax-paying citizens in our country.
    Healthy organizations are sometimes difficult and require a 
lot of leadership. If you want a healthy organization, whether 
it is a HIDTA or a drug task force or whatever, you have to 
have good people at the helm, and I think we do that to some 
extent. We have to improve upon that, too.
    Senator Pryor. Mr. Bitsko.
    Mr. Bitsko. Nevada has approximately 580 identified gangs 
and 20,000 gang members. This has been relatively consistent. 
It is going up a little bit. Paisa, I believe is how it is 
pronounced, gang is probably the one that is most affiliated 
with the Mexican cartels in Nevada, and they are acting as 
enforcers. They are acting as distributors.
    I think one of the things we have to be careful with, I 
mean, the problem is overwhelming the cartel influence, but we 
need to be sure that we differentiate between a Mexican 
national DTO that is distributing drugs that may be four or 
five steps removed from the cartel. So no doubt that the gang 
members, no matter what nationality they are, are having a 
great impact on the drug dealing in Nevada--that is all I can 
speak to, but I am sure across the country--but not all of them 
are affiliated with the cartels.
    Senator Pryor. Right. Listen, I want to thank both of you 
all for being here and coming to Washington and spending your 
day with us here. I know that Senator Ensign and I are both 
just delighted to have each of you here.
    What we will do is, like with the previous panel, we will 
leave this record open for 2 weeks. There may be some followup 
questions. I am not sure if Senator Ensign had time to ask all 
of his of this panel.
    But thank you all for being here, and with that, we will 
adjourn the hearing.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
